APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10710-H

STEVEN JUSTIN VILLALONA,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Florida

ORDER:
Steven Villalona is a federal prisoner serving a 180-month total sentence after he pled
guilty to conspiracy to possess with intent to distribute cocaine and possession of a firearm in
furtherance of a drug-trafficking offense. He filed a 28 U.S.C. § 2255 motion to vacate, set aside,
or correct his sentence, arguing that his counsel was ineffective for failing to file a motion to
withdraw Mr. Villalona’s guilty plea before the court accepted the plea. The district court
ultimately denied the § 2255 motion after holding an evidentiary hearing, and this Court denied
Mr. Villalona a COA as to the denial of his § 2255 motion.
Mr. Villalona subsequently filed a Fed. R. Civ. P. 60(b)(4) and (6) motion, arguing that
(1) the district court had failed to apply the correct ineffective-assistance-of-counsel standard;
(2) the district court had failed to establish “the manner in which the evidence and arguments
would be presented” during the evidentiary hearing; and (3) the district court wrongly had denied

his request to present arguments during the evidentiary hearing. The district court denied the
Rule 60(b)(4) and (6) motion and denied Mr. Villalona a certificate of appealability (“COA”). In
a later order, the district court denied Mr. Villalona leave to proceed in forma pauperis (“IFP”) on
appeal. Mr. Villalona has appealed and now moves this Court for a COA and IFP status on appeal.
A COA is required to appeal from the denial of a Fed. R. Civ. P. 60(b) motion arising from
a § 2255 proceeding. Jackson v. Crosby, 437 F.3d 1290,1294 (11th Cir. 2005). To obtain a COA,
a movant must make “a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). Where the district court has denied a motion on the merits, the petitioner must
demonstrate that “reasonable jurists would find the district court’s assessment of the constitutional
claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Under Rule 60(b)(4), a judgment is void “if the court that rendered it lacked jurisdiction of
the subject matter, or of the parties, or if it acted in a manner inconsistent with due process of law.”
Burke v. Smith, 252 F.3d 1260, 1263 (11th Cir. 2001). A judgment is also void “if the rendering
court was powerless to enter it.”

Id.

Relief from “judgment under Rule 60(b)(6) is an

extraordinary remedy,” Booker v. Singletary, 90 F.3d 440, 442 (11th Cir. 1996). Consequently,
relief under Rule 60(b)(6) requires showing “extraordinary circumstances justifying the reopening
of a final judgment.” Gonzalez v. Crosby, 545 U.S. 524, 535 (2005) (internal quotation omitted).
Here, reasonable jurists would not debate that the district court’s denial of Mr. Villalona’s
Rule 60(b)(4) and (6) motion. First, the district court had proper jurisdiction over Mr. Villalona’s
§ 2255 proceedings and had the power to deny the motion, as it was the same court that imposed
his sentence. See Burke, 252 F.3d at 1263; 28 U.S.C. § 2255(a) (stating that a prisoner may file a
§ 2255 motion in the same court that imposed the sentence). Furthermore, Mr. Villalona has not
alleged that the district court “acted in a manner inconsistent with due process of law,” and he

2

admitted that the court allowed him to testify and give arguments during the evidentiary hearing.
See Burke, 252 F.3d at 1263.
Second, the district court correctly concluded that Mr. Villalona failed to allege
extraordinary circumstances that warranted relief under Rule 60(b)(6). See Gonzalez, 545 U.S.
at 535; Booker, 90 F.3d at 442. The district court listened to testimony and arguments from both
Mr. Villalona and his counsel during the evidentiary hearing and determined that counsel’s
testimony that Mr. Villalona had never instructed him to file a motion to withdraw the guilty plea
was more credible than Mr. Villalona’s testimony that he had given counsel such an instruction.
Mr. Villalona has failed to show by clear and convincing evidence that this credibility
determination by the district court was wrong. See Nejad v. Ga. Att’y Gen., 830 F.3d 1280, 1292
(11th Cir. 2016) (concluding that, when “the trial court was presented with squarely conflicting
testimony on [a] critical factual dispute,” this Court was “powerless to revisit [the trial court’s
credibility determination] on federal habeas review,” absent “clear and convincing evidence in the
record to rebut this credibility judgment”). Consequently, the district court applied the appropriate
ineffective-assistance-of-counsel standard when it denied the § 2255 motion, as counsel’s
performance was not deficient because he was never instructed to file a motion to withdraw the
guilty plea. See Strickland v. Washington, 466 U.S. 668, 687-89 (1984) (stating that, in order to
demonstrate ineffective assistance of counsel, a defendant must show that counsel’s deficient
actions were below the wide range of competence demanded of attorneys in criminal cases).
Accordingly, Mr. Villalona’s CO A motion is DENIED. His IFP motion is DENIED AS
MOOT.
_____ /s/ Jill Pryor_______
UNITED STATES CIRCUIT JUDGE

3

APPENDIX B

tv

Case 6:14-cv-00162-PGB-TBS Document 81 Filed 02/06/20 Page 1 of 5 PagelD 627

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
STEVEN JUSTIN VILLALONA,
Petitioner,
Case No: 6:14-cv-162-Orl-40TBS
(6:ll-cr-375-Orl-40TBS)

v.

UNITED STATES OF AMERICA,
Respondent.

ORDER
This cause is before the Court on Petitioner's Motion to Recuse Judge Byron (Doc.
79) and Motion for Relief From Final Judgment (Doc. 80).
Following an evidentiary hearing, the Court entered an Order on August 24, 2018,
denying Petitioner's Motion to Vacate, Set Aside, or Correct Sentence ("Motion to
Vacate," Doc. 1) and dismissing the case with prejudice. Petitioner appealed, and, on
February 27, 2019, the Eleventh Circuit Court of Appeal denied Petitioner's request for a
certificate of appealability. (Doc. 76).

On November 12, 2019,

the Supreme Court of the

United States denied his petition for a writ of certiorari. (Doc. 78).
I.
A.

Analysis

Motion to Recuse Judge Byron

"i

Case 6:14-cv-00162-PGB-TBS Document 81 Filed 02/06/20 Page 2 of 5 PagelD 628

The Court must consider its responsibility under 28 U.S.C. section 455 to view all
of the circumstances in this case to determine whether recusal is appropriate.1 After
consideration of this matter, the Court can find no basis to warrant a recusal under section
455.
"[T]he standard for determining whether a judge should disqualify himself [or
herself] under § 455 is an objective one, whether a reasonable person knowing all the facts
would conclude that the judge's impartiality might be questioned."

United States v.

Greenough, 782 F.2d 1556,1559 (11th Cir. 1986). "Ordinarily, a judge's rulings in the same
or a related case may not serve as the basis for a recusal motion. The judge's bias must
be personal and extrajudicial; it must derive from something other than that which the
judge learned by participating in the case." McWhorter v. City of Birmingham, 906 F.2d 674,
678 (11th Cir. 1990) (citations omitted).2

1 The criterion for recusal under 28 U.S.C. § 455 states in part:
(a)

Any justice, judge, or magistrate of the United States
shall disqualify himself in any proceeding in which his
impartiality might reasonably be questioned.

(b)(1) He shall also disqualify himself . . . [w]here he has a
personal bias or prejudice concerning a party, or
personal knowledge of disputed evidentiary facts
concerning the proceeding.
28 U.S.C. § 455(a), (b)(1).
2 Only personal bias, not judicial bias, is sufficient to justify recusal of a judge.
jaffree v. Wallace, 837 F.2d 1461,1465 (11th Cir. 1988). Moreover, the bias must "'stem from
2

Case 6:14-cv-00162-PGB-TBS Document 81 Filed 02/06/20 Page 3 of 5 PagelD 629

In this case, Petitioner's allegations of bias essentially stem merely from rulings
and remarks made by the Court at the evidentiary hearing. However, Petitioner has
failed to demonstrate bias whatsoever toward him. The mere fact that the Court ruled in
a manner that is in some manner adverse to Petitioner does not establish personal bias or
prejudice. See United States v. Cohen, 644 F. Supp. 113 (E.D. Mich. 1986). The statements
of the Court at the evidentiary hearing identified were not extrajudicial in nature, were
not of such a character that a reasonable person knowing all the facts would conclude
that the Court's impartiality might reasonably be questioned, and did not in any manner
indicate that the Court was incapable of rendering a fair judgment.
The Court is unable to find any basis to support a recusal in this case. Petitioner
has merely provided the Court with vague and conclusory allegations, which are
unsupported. Petitioner's unsubstantiated suggestions of personal bias or prejudice do
not require recusal in the present case, and the motion is denied.
B.

Motion for Relief From Final Judgment

Petitioner seeks relief under Federal Rules of Civil Procedure 60(b)(4) and (6). He
argues that, at the evidentiary hearing, the Court failed to set forth "the manner in which
I
personal, extrajudicial sources' unless 'pervasive bias and prejudice is shown by
otherwise judicial conduct.'" First Alabama Bank of Montgomery, N.A. v. Parsons Steel, Inc.,
825 F.2d 1475,1487 (11th Cir. 1987) (citation omitted). Petitioner has failed to present any
evidence of a personal, pervasive bias or prejudice demonstrated by the Court. See
Loranger v. Stierheim, 10 F.3d 776, 780 (11th Cir. 1994) ("[A]s a general rule, a judge's
rulings in the same case are not valid grounds for recusal.").
3

Case 6:14-cv-00162-PGB-TBS Document 81 Filed 02/06/20 Page 4 of 5 PagelD 630

the evidence and arguments would be presented . . .

(Doc. 80 at 7). In particular,

Petitioner alleges that, at the evidentiary hearing, the Court did not allow him to present
argument in support of his claims. (Id.).
Petitioner brings this motion under Federal Rule of Civil Procedure 60(b)(4) and
60(b)(6).1 Under Rule 60(b)(4), a party can move a court to set aside a judgment that is
"void." However, Petitioner does not raise any arguments that could support a finding
that the order dismissing his case was void. In fact, Petitioner essentially attacks the
validity of his underlying criminal judgment, and the appropriate vehicle for these claims
is a section 2255 motion; however, Petitioner is barred from bringing a second habeas
petition because he has not complied with the procedural requirements for doing so.
In addition, relief under Rule 60(b)(6) is an extraordinary remedy and requires a
showing of extraordinary circumstances. Gonzalez v. Crosby, 545 U.S. 524, 536 (2005).
Here, Petitioner has failed to provide support for the relief requested, and he has. not
shown any extraordinary circumstances that would warrant reconsideration of the order
of dismissal or would otherwise warrant relief under Rule 60(b)(6). In short, nothing
presented by Petitioner in the instant motion, whether under Rule 60(b)(4) or Rule

t

1Rule 60 permits a district court to relieve a party from a final order or judgment
on grounds including but not limited to (1) mistake, inadvertence, surprise, or excusable
neglect; (2) newly discovered evidence; (3) fraud, misrepresentation, or misconduct by
an opposing party; (4) the judgment is void; (5) the judgment has been satisfied, released,
or discharged; or (6) any other reason that justifies relief.
4

*

>
Case 6:14-cv-00162-PGB-TBS Document 81 Filed 02/06/20 Page 5 of 5 PagelD 631

60(b)(6), persuades the Court that the dismissal of the petition was erroneous. As a result,
the instant motion is denied.
Further, because Petitioner has not made a substantial showing of the denial of a
constitutional right, a certificate of appealability is denied with regard to the denial of
this motion.
II.

Conclusion

Accordingly, it is ORDERED and ADJUDGED as follows:
1.

Petitioner's Motion to Recuse Judge Byron (Doc. 79) is DENIED.

2.

Petitioner's Motion for Relief From Final Judgment (Doc. 80) is DENIED.

DONE and ORDERED in Orlando, Florida on February 6, 2020.

AkoJL -

UNITED STATE3*CISTRICT JUDGE

■i

Copies furnished to:
Counsel of Record
Unrepresented Party

5

APPENDIX C

Case: 20-10710

Date Filed: 09/17/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-10710-H
STEVEN JUSTIN VILLALONA,
Petitioner-Appel lant,
versus
>

UNITED STATES OF AMERICA,

Respondent-Appel lee.
Appeal from the United States District Court
for the Middle District of Florida
Before: MARTIN and JILL PRYOR, Circuit Judges.
BY THE COURT:
Steven Justin Villalona has filed a motion for reconsideration, pursuant to
11th Cir. R. 22-l (c) and 27-2, of the August 3, 2020, order denying a certificate of appealability
and leave to proceed on appeal in forma pauperis in his appeal from the denial of his underlying
motion to vacate sentence, 28 U.S.C. § 2255.

Upon review, Mr. Villalona’s motion for

reconsideration is DENIED because he has offered no new evidence or arguments of merit to
warrant relief.

